           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
          STATE OF FLORIDA
     FOR THE FISCAL YEAR ENDED
             JUNE 30, 2001


     July 2002   A-77-02-00014




MANAGEMENT ADVISORY
      REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      SOCIAL SECURITY
Memorandum

Date:   July 26, 2002                                                         Refer To:

To:     Ellen Baese
        Director
        Management Analysis and Audit Program Support Staff

From:      Assistant Inspector General
            for Audit

Subject:   Management Advisory Report on the Single Audit of the State of Florida for the Fiscal
           Year Ended June 30, 2001 (A-77-02-00014)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the State of Florida for the Fiscal Year ended June 30, 2001. Our objective
           was to report internal control weaknesses, noncompliance issues, and unallowable
           costs identified in the single audit to SSA for resolution action.

           The Florida Auditor General performed the audit. The Department of Health and
           Human Services’ desk review concluded that the audit met Federal requirements. In
           reporting the results of the single audit, we relied entirely on the internal control and
           compliance work performed by the Florida Auditor General and the reviews performed
           by the Department of Health and Human Services.

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance and Supplemental Security Income programs are identified by CFDA
           number 96. SSA is responsible for resolving single audit findings reported under this
           CFDA number.

           The Florida Disability Determination Services (DDS) performs disability determinations
           under SSA’s Disability Insurance and Supplemental Security Income programs in
           accordance with Federal regulations. The DDS is reimbursed for 100 percent of
           allowable costs. The Florida Department of Health is the Florida DDS’ parent agency.

           The single audit reported that payroll certifications were not properly prepared to
           support DDS employees’ salaries of $366,019, as required by Office of Management
           and Budget Circular A-87. The Florida Department of Health’s corrective action plan
           indicates that semiannual certifications will be completed in the future (see
           Appendix A).
      Page 2 -Ellen Baese


     We recommend     that SSA:

         Instruct the DDS to obtain semiannual payroll certifications for all employees.

     2. Determine whether salary costs of $366,019 were allowable, and if not, recover the
        unallowable costs from the DDS.

     The single audit also disclosed that personnel costs were not properly allocated to
     benefiting Federal programs. Although this finding was not specifically identified to
     SSA, it may impact DDS operations. I am bringing this matter to your attention as it
     represents a potentially serious financial control problem for the Agency
     (see Appendix B).

      Please send copies of the final Audit Clearance Document to Shannon Agee in
      Kansas City and Paul Wood in Baltimore. If you have questions contact Shannon Agee
      at (816) 936-5590.


                                                                        "'
                                               StevenL. schaell:


     Attachments

      cc:
      Paul Wood, OIG/OA
      Trudy Williams, MAAPSS




-fi"--~;~~1
1
                                                                                                      Appendix A
                                                                                                      Page 1 of 1
                        U.S. SOCIAL SECURITY ADMINISTRATION
Finding Number              01-090
CFDA Numbers                96.001 and 96.006
Program Title               Disability Insurance/Supplemental Security Income Cluster (SSDI)
Compliance Requirement      Allowable Costs/Cost Principles
State Agency                Florida Department of Health (FDOH)
Federal Grant/Contract      04-0104FLDIOO 2001 and 04-0004FLDIOO 2000
  Number and Grant Year
Finding Type                Reportable Noncompliance and Reportable Condition
Questioned Costs            N/A

Finding                     Salary costs were not adequately documented.

Criteria                    OMB Circular A-87, Attachment B, Section 11.h., Support of Salaries and Wages

Condition                   We tested 40 SSDI expenditures, 10 of which were salary payments for 10
                            employees. While all employees indicated to us that they worked 100 percent on the
                            SSDI Program, we noted that payroll certifications were not prepared to support the
                            salaries paid to nine of the employees. Specifically, certifications for two employees
                            were signed prior to the completion of work efforts; certifications were not available
                            for one half of the year for five employees; and certifications for two employees
                            covered one year rather than six months as required by OMB Circular A-87. In
                            addition, five certification forms provided were dated subsequent to audit inquiry.
                            Salaries paid these employees during the audit period totaled $366,019.

Cause                       FDOH procedures were not effective to ensure that payroll certifications were
                            obtained.

Effect                      Salary costs were not documented in accordance with OMB Circular A-87.

Recommendation              We recommend that the FDOH obtain semiannual payroll certifications for all
                            employees fully funded by Federal programs.

State Agency Response and   Follow-up training and instruction has been provided to DDD (Division of
 Corrective Action Plan     Disability Determination) staff regarding the importance and timing
                            requirements for semiannual single federal award certifications. The division will
                            ensure that semiannual certifications are completed as required by OMB A-87.

 Agency Contact             Avis Hannon Payne (850) 410-2545

 Estimated Corrective       February 15, 2002
 Action Date
                                                                                                         Appendix B
                                                                                                         Page 1 of 1
            U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES
Finding Number              01-083
CFDA Number                 93.917
Program Title               HIV Care Formula Grants (HIV)
Compliance Requirement      Activities Allowed or Unallowed and Allowable Costs/Cost Principles
State Agency                Florida Department of Health (FDOH)
Federal Grant/Contract      6 X07 HA 00057-10 2001 and 2 X07 HA 00057-11 2002
  Number and Grant Year
Finding Type                Reportable Noncompliance and Reportable Condition
Questioned Costs            $57,683

Finding                     Salary costs of employees were sometimes charged to the HIV Program in excess
                            of the benefits received by the HIV Program.

Criteria                    OMB Circular A-87, Attachment B, Section 11.h., Support of Salaries and Wages

Condition                   We tested 40 HIV Care Formula Grant expenditures, 18 of which were salary payments.
                            Our test disclosed that 100 percent of the salary and benefits for one employee were
                            charged to the HIV Program although the employee indicated she worked on the HIV
                            Program 40 percent of the time. FDOH did not have adequate supporting
                            documentation for the time that the employee indicated was devoted to the Program.
                            Salary and benefits charged to the HIV Program for this employee totaled $40,362
                            during the fiscal year ended June 30, 2001.

                            Our test also disclosed that estimated percentages of the salaries and benefits for three
                            employees (four expenditures tested) were charged to the HIV Program without
                            subsequent adjustments for actual time worked. For two of the employees, employee
                            activity records (EARs) indicated lower percentages of time were actually devoted to
                            the HIV Program than estimated. For example, 25 percent of one employee's salary
                            was charged to the HIV Program but EARs indicate 13 percent was spent on the HIV
                            Program. The third employee's salary was charged 20 percent to the HIV Program but
                            EARs were not available to support time worked. Based on time recorded in the EARs
                            for the three positions, the HIV Program was overcharged $17,321.

                            Similar findings were noted in audit report No. 01-134, finding No. 00-75.

Cause                       FDOH procedures were not sufficient to identify certain employees whose salaries and
                            benefits should be adjusted based on time spent on the HIV Program.

Effect                      The HIV Program was charged costs in excess of the actual benefits received totaling
                            $57,683.

Recommendation              We recommend that FDOH review its methodology for ensuring that salary
                            costs are charged on the basis of the employees' time and effort.

State Agency Response and   The department is making every effort to ensure that employees paid from the
Corrective Action Plan      Ryan White Title II funding source are working on HIV/AIDS activities. The Bureau of
                            HIV/AIDS will continue to advise the County Health Departments of this requirement.
                            The bureau will also make it part of the quality improvement review of county health
                            departments to ensure employees paid from this funding source are working solely on
                            HIV/AIDS activities.

Agency Contact              S. Gail Henderson, Budget and Grants Manager Phone# 245-4582

Estimated Corrective        Ongoing
  Action Date
                   Overview of the Office of the Inspector General
                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.


                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.


                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.


                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
